OIG Audit Report 09-17
Office of Justice Programs Annual Financial Statement - Fiscal Year 2008
Audit Report 09-17
March 2009
Office of the Inspector General
Commentary and Summary
This audit report contains the Annual Financial Statement of the Office of Justice Programs (OJP) for the fiscal years (FY) ended September 30, 2008, and September 30, 2007.  Under the direction of the Office of the Inspector General (OIG), KPMG LLP performed the audit, which resulted in an unqualified opinion on the FY 2008 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and the results of the entitys operations in conformity with U.S. generally accepted accounting principles.  For FY 2007, OJP also received an unqualified opinion on its financial statements (OIG Report No. 08-11).
KPMG LLP also issued reports on internal control over financial reporting and on compliance and other matters.  For FY 2008, the auditors identified two significant deficiencies in the Independent Auditors Report on Internal Control over Financial Reporting.  The first significant deficiency relates to vulnerabilities identified in the information system controls environment.  Specifically, improvements are needed in OJPs access controls and change controls.  The second significant deficiency relates to OJPs processes for estimating grant advances.  While the auditors found that OJP made significant improvement in addressing the prior year control finding, they noted that further improvement is still needed in OJPs controls and methodology for the quarterly estimation of grant advance amounts.  No instances of non-compliance with laws and regulations or other matters were identified during the audit.
The OIG reviewed KPMG LLPs reports and related documentation and made necessary inquiries of its representatives.  Our review, as differentiated from an audit in accordance with U.S. generally accepted government auditing standards, was not intended to enable us to express, and we do not express, an opinion on OJPs financial statements, conclusions about the effectiveness of internal control, conclusions on whether OJPs financial management systems substantially complied with the Federal Financial Management Integrity Act of 1996, or conclusions on compliance with laws and regulations.  KPMG LLP is responsible for the attached auditors reports dated November 6, 2008, and the conclusions expressed in the reports.  However, our review disclosed no instances where KPMG LLP did not comply, in all material respects, with U.S. generally accepted government auditing standards.
Return to OIG Home Page